CASE NO.

In The
SUPREME COURT OF THE UNITED STATES

Viktoria Benkovitch,
Applicant/Petitioner,
v.
Deutsche Bank National Trust Company, As Trustee
For Holders of The BCAP LLC Trust 2007-AA3,
Respondent.
Application for an Extension of Time Within
Which to File a Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit
APPLICATION TO THE HONORABLE JUSTICE
CLARENCE THOMAS, ASSOCIATE JUSTICE
OF THE UNITED STATES SUPREME COURT AND
AS CIRCUIT JUDGE FOR THE ELEVENTH CIRCUIT
VIKTORIA BENKOVITCH
Applicant/Petitioner
Appearing Pro Se
44 Cotswold Crescent
Toronto, Ontario, Canada M2P 1N2
Tel: (786) 223 3979
Email: Benkovitch@hotmail.com
COUNSEL OF RECORD FOR RESPONDENT
Nancy M. Wallace, Esq.
Michael J. Larson, Esq.
Akerman, llp
210 East Park Avenue, Suite 300
Tallahassee, Florida, USA 32301
March 13, 2020

RECEIVED

m 1^

APPLICATION FOR AN EXTENSION OF TIME
Pursuant to Rule 13.5 of the Rules of this Court and 28 USC Section 2101(c),
Applicant Viktoria Benkovitch ("Benkovitch" or the "Applicant") respectfully requests
a 60-day extension of time within which to file a petition for a writ of certiorari (the
"Petition") up to and including Thursday May 14, 2020. The earliest deadline for the
Applicant to file her Petition is Monday March 16, 2020 (the "Current Due Date")
which is ninety days from Monday, December 16, 2019, the date when the United
States Court of Appeals for the Eleventh Circuit (the "Appeal Court") entered an
order denying Benkovitch's request for rehearing and rehearing en banc to said
Appeal Court. In accordance with Supreme Court Rule 30.1, one day was added to
the above calculation of time to move the date from Sunday March 15, 2020 to the
"next day that is not a Saturday, Sunday, federal legal holiday, or day on which the
Court building is closed," namely the Current Due Date of Monday March 16, 2020.
For good cause and extraordinary circumstances described herein (the Pro Se
Applicant has become ill while preparing her Petition), the Applicant respectfully
requests that this deadline be extended by sixty days so that the new deadline would
be Thursday May 14, 2020.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment of the Appeal Court for which review is sought is Viktoria
Benkovitch v. Deutsche Bank National Trust Co., Appeal Case No. 18-11728, entered
on September 23, 2019 (and attached herewith as Exhibit 1). The Appeal Court
denied Benkovitch's petition for rehearing en banc on December 16, 2019 (attached
as herewith as Exhibit 2).

JURISDICTION
This Court will have jurisdiction over any timely filed petition for certiorari in
this case pursuant to 28 U.S.C. Section 1254(1). Under Rules 13.1, 13.3 and 30.1 of
the Rules of this Court, and as computed above, a petition for a writ of certiorari was
due to be filed on or before March 16, 2020. This application (the "Application") is
being filed pursuant to 28 U.S.C. Section 2101(c); and, respectively, Rules 13.5 and
22.2 of the Rules of this Court in advance of the Current Due Date for the Petition
and due to the extraordinary circumstances described below.
REASONS JUSTIFYING AN EXTENSION OF TIME
Applicant Benkovitch, appearing on a pro se basis, respectfully requests a 60day extension of time, up to an including Thursday May 14, 2020, within which to file
her Petition for a Writ of Certiorari seeking this Court's review of the decision of the
Appeal Court,
As the Applicant does not have counsel, nor time to seek the assistance of
counsel, she is requesting the extension because she has fallen ill and is currently
confined to her bed. Because the Applicant is representing herself and researching,
preparing and filing her pending Petition herself, her ability to timely complete and
file

the

Petition

has,

therefore,

been

interrupted

and

compromised

for

unforeseen/unexpected reasons and despite her utmost diligence.
Secondly, as evidenced by the record of the Appeal Court, the 66-year old
Applicant has an underlying medical condition that has previously confined her to
bed and interrupted her everyday life tasks and this case itself. In fact, she continues
to receive medical attention in Toronto, Canada where healthcare is provided to her
2

at minimal cost due to her citizenship of Canada. Moreover, over the past three days,
the Applicant has experienced chills, body aches, a low-grade fever and coughing
episodes which have further hampered her health and ability to complete and timely
file her Petition by the Current Due Date. For preventive [pursuant to the current
health environment and pandemic in North America] and recovery purposes, the
Applicant has self-quarantined herself [including under her physician's instructions]
in bed, at her home in Toronto, Canada.
Thus, for the above reasons - all of which are beyond her control and diligence
- the Applicant cannot complete her necessary tasks and work to timely complete and
file her Petition by the Current Due Date. The requested extension of time for said
extraordinary circumstances will permit the Applicant the necessary time to
adequately recover [including through the required/recommended quarantine period
and bedrest] and effectively complete her Petition to file on or before May 14, 2020.
Importantly and as outlined above, the Applicant cannot have foreseen nor
anticipated her current ailments as such symptoms and illness only appeared over
the past three days while the Applicant was preparing her Petition. As a result, she
could not have possibly known, nor foreseen, nor even been able to file this
Application any earlier, including ten days prior to the Current Due Date of the
Petition as set out in Rule 13.5. Thus, such unforeseen, critical and extraordinary
circumstances further warrant this Application.
The Applicant's diligence in this Case is also noteworthy and supports this
Application. As evidenced by the record below, other than for Oral Argument in the

3

Appeal Court which she is not permitted to argue herself and was, therefore,
represented by legal counsel for that event only, the Applicant has continued to
appear on a pro se basis. She prepared and filed her own pleadings in full compliance
with all the rules of appellate procedure and the Appeal Court's Local Rules. Her
pleadings in the Appeal Court evidence the Applicant's adherence and respect for the
law, the Court(s), the judicial system and its applicable procedures, and the
Respondent in this case. In sum, the Applicant has and continues to be diligent and
fully compliant in this case.
Also, pertinently, the Applicant's pending Petition presents close questions of
national importance and which could be very well decided by this Court the other way
that the Appeal Court did. The questions and issues raised by Benkovitch in the
pending Petition directly affect the statutory context and construction of the
Bankruptcy Code. Specifically, the Applicant's pending Petition will present
substantial questions regarding the finality and res judicata effect of a confirmed
bankruptcy plan and related bankruptcy court confirmation order; and, whether
notions of equity and fairness override the express provisions of said confirmation
order and the Bankruptcy Code itself. Further, not only is the Appeal Court's
judgment contrary to this very Court's controlling precedent(s), but the issue(s) to be
resolved by this Court include those of first impression with implications to the
appropriate interpretation of the Bankruptcy Code.

4

CONCLUSION
WHEREFORE, for the foregoing reasons, good cause and extraordinary
circumstances shown, the Applicant, Benkovitch, respectfully requests that this
Honorable Court grant this Application for an extension of time of 60-days up to and
through May 14, 2020 to file her Petition for Writ of Certiorari to this Court.

Respectfully Submitted,

VIKTORIA BENKOVITCH
A ppi ,i cant/ Petitioner
Appearing Pro Se
44 Cotswold Crescent
Toronto, Ontario, Canada M2P 1N2
Tel: (786) 223 3979
Email: Benkovitch@hotmaii.com

5

